TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Customer Account Data Engine 2
                     Database Implementation Project Made
                        Progress in Design Activities, but
                           Improvements Are Needed



                                      September 20, 2011

                              Reference Number: 2011-20-110




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE CUSTOMER ACCOUNT DATA                             Implementation security and privacy controls
ENGINE 2 DATABASE                                     and made critical decisions relating to security of
IMPLEMENTATION PROJECT MADE                           the database. Despite overall progress,
PROGRESS IN DESIGN ACTIVITIES,                        improvements are needed to ensure key
                                                      activities for the Design Specification Report,
BUT IMPROVEMENTS ARE NEEDED
                                                      audit plan, and database trial initializations are
                                                      timely, and the Interface Control Documents and
Highlights                                            Work Breakdown Structure comply with
                                                      Enterprise Life Cycle criteria.
Final Report issued on                                WHAT TIGTA RECOMMENDED
September 20, 2011
                                                      TIGTA recommended that the Chief Technology
                                                      Officer ensure key activities and deliverables
Highlights of Reference Number: 2011-20-110
                                                      (including security) are completed timely and, if
to the Internal Revenue Service Chief
                                                      not, an assessment is made to determine the
Technology Officer.
                                                      impact or risk of not completing the required
IMPACT ON TAXPAYERS                                   activity; the Enterprise Life Cycle guidance is
                                                      kept current and includes all artifacts needed for
The mission of the Customer Account Data              projects following the Iterative Path; and several
Engine 2 (CADE 2) Program is to provide               other system development process
state-of-the-art individual taxpayer account          improvements are implemented to ensure the
processing and technologies to improve service        CADE 2 system functions as designed when
to taxpayers and enhance Internal Revenue             deployed into IRS operations.
Service (IRS) tax administration. Once
completed, the new modernization environment          In its response to the report, the IRS agreed with
should allow the IRS to more effectively and          four of TIGTA’s recommendations and has taken
efficiently update taxpayer accounts, support         or plans to take appropriate corrective actions.
account settlement and maintenance, and               The IRS disagreed with TIGTA’s
process refunds on a daily basis, all of which will   recommendation to ensure the Internal Revenue
contribute to improved taxpayer services.             Manual (IRM) guidance for the Enterprise Life
                                                      Cycle is current and addresses the artifacts
WHY TIGTA DID THE AUDIT                               needed for the Iterative Path. The IRS stated
                                                      the IRM is updated annually and reflects the
The overall objective was to review the
                                                      required artifacts. Further, the IRS indicated
preliminary and detailed designs of the CADE 2
                                                      that when projects proceed through milestone
database to ensure that the design is secure
                                                      reviews without the artifacts identified in the
and satisfies the stated requirements, and that
                                                      IRM, they do so under a tailored plan, a practice
project management practices adhere to
                                                      also outlined in the IRM.
Enterprise Life Cycle standards and processes
for the related design milestones.                    TIGTA found that the IRS’s project tailoring plan
                                                      contained the artifacts from the IRM and was not
WHAT TIGTA FOUND                                      subsequently updated to include an updated
The CADE 2 Database Implementation Project            artifact based on the Iterative Path approach.
team made progress to complete design                 As a result, TIGTA maintains that the IRM needs
activities and address security and privacy           to be updated to make the guidance more
controls. For example, the Database                   effective in managing projects following the
Implementation Project team closed issues             Iterative Path. Until the IRM guidance can be
identified from the CADE 2 database Extract,          revised during the next annual update cycle, the
Transform, and Load prototypes and addressed          IRS should consider sending out additional
requirements and business rules. In addition, an      guidance based on lessons learned.
improved Project team and Cybersecurity
organization partnership addressed Database
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 20, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Customer Account Data Engine 2 Database
                               Implementation Project Made Progress in Design Activities, but
                               Improvements Are Needed (Audit # 201120002)

 This report presents the results of our review of the Customer Account Data Engine 2 Database
 Implementation. Our overall objective was to review the preliminary and detailed designs1 of the
 Customer Account Data Engine 2 database and ensure that the database is designed in a secure
 manner, the design satisfies the stated requirements, and project management practices adhere to
 Enterprise Life Cycle standards and processes for the related design milestones. This review is
 included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or Alan
 Duncan, Assistant Inspector General for Audit (Security and Information Technology Services),
 at (202) 622-5894.




 1
  Enterprise Life Cycle Milestone 3 is the preliminary (i.e., logical) design of all solution components and
 Milestone 4a is the detailed (i.e., physical) design of solution components.
                                         The Customer Account Data Engine 2
                                   Database Implementation Project Made Progress
                                  in Design Activities, but Improvements Are Needed




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Database Implementation Project Made Progress to Complete
          Design Activities and Address Security and Privacy Controls ..................... Page 3
          Improvements Are Needed to Ensure Timely Delivery of Key
          Activities ....................................................................................................... Page 5
                     Recommendations 1 and 2: ................................................ Page 9

          Interface Control Documents and the Integrated Master
          Schedule Do Not Comply With All Enterprise Life Cycle
          Criteria .......................................................................................................... Page 10
                     Recommendation 3:........................................................ Page 12

                     Recommendations 4 and 5: .............................................. Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Enterprise Life Cycle Overview .......................................... Page 20
          Appendix V – Customer Account Data Engine 2
          Integrated Design Reviews ........................................................................... Page 22
          Appendix VI – Customer Account Data Engine 2
          Transition Strategy ........................................................................................ Page 23
          Appendix VII – Database Implementation Design Issues
          in Pending Status........................................................................................... Page 25
          Appendix VIII – Glossary of Terms ............................................................. Page 26
          Appendix IX – Management’s Response to the Draft Report ...................... Page 31
               The Customer Account Data Engine 2
         Database Implementation Project Made Progress
        in Design Activities, but Improvements Are Needed




                  Abbreviations

CADE        Customer Account Data Engine
DSR         Design Specification Report
ELC         Enterprise Life Cycle
ETL         Extract, Transform, and Load
IMF         Individual Master File
IMS         Integrated Master Schedule
IRM         Internal Revenue Manual
IRS         Internal Revenue Service
TIGTA       Treasury Inspector General for Tax Administration
WBS         Work Breakdown Structure
                                    The Customer Account Data Engine 2
                              Database Implementation Project Made Progress
                             in Design Activities, but Improvements Are Needed




                                             Background

In August 2008, the Internal Revenue Service (IRS) Commissioner established the Modernized
Taxpayer Account Program Integration Office to manage the transition of current individual
income tax processing, which consists of multiple
computer systems for processing tax returns, payments,
and other transactions that affect individual taxpayer           The Customer Account Data
                                                              Engine 2 Program is the highest
accounts, into a more consolidated system. Working in          priority information technology
conjunction with IRS business owners, the Program             modernization project in the IRS.
Integration Office decided to integrate elements from both
the existing Individual Master File (IMF)2 and current
Customer Account Data Engine (CADE) processes into a new CADE 2 Program. The proposed
plan incrementally transfers taxpayer accounts from the current IMF and CADE processing
systems to a new CADE 2 relational database.
The CADE 2 Program is the top information technology modernization project in the IRS. The
CADE 2 Transition Strategy3 involves three phases: Transition States 1 and 2 and a Target State.
To accomplish Transition State 1 goals, the CADE 2 Database Implementation Project was
established to move the IRS away from operating in two tax processing environments and to
maintain a single system of records for all individual taxpayer accounts. The primary deliverable
of the CADE 2 Database Implementation Project is a relational database that will house
individual taxpayer account data, currently processed by the IMF and current CADE systems.
Some of the Database Implementation Project objectives are to:
      •    Develop the end-state database data model that meets business needs such as transaction
           posting, financial settlement, and post analysis.
      •    Create and implement a database that supports both the database system functions (such
           as record, read, write, update, and performance) and business requirements (such as data
           security, account viewing, and reporting).
      •    Initialize the database with the IMF and current CADE system data and update active
           records from Daily Processing.
      •    Provide a viewing capability for the taxpayer account data residing in the CADE 2
           database via Corporate Files On-Line and Individual Master File On-Line commands.



2
    See Appendix VIII for a glossary of terms.
3
    See Appendix VI for the CADE 2 Transition Strategy.
                                                                                             Page 1
                                  The Customer Account Data Engine 2
                            Database Implementation Project Made Progress
                           in Design Activities, but Improvements Are Needed



This review is one of a series of audits providing assessments of the CADE 2 Program as part of
our Security and Information Technology Audit Strategy for Fiscal Years 2010 and 2011. For
instance, the Treasury Inspector General for Tax Administration (TIGTA) issued its report on the
results of the CADE 2 prototype activities on November 24, 2010.4 The objective of each
prototype was to demonstrate confidence in the CADE 2 Program approach by verifying system
viability and performance and by defining components that would serve as the foundation for
development activities. Specifically, the CADE 2 Database Implementation Project was
dependent on the CADE 2 database Extract, Transform, and Load (ETL) prototypes that were
established to test hypotheses around the tools and architecture of selected Database
Implementation Project components. The results of the prototypes would facilitate the CADE 2
Database Implementation Project design and develop the CADE 2 database in Transition State 1.
In addition to the prototype review, the TIGTA has recently completed audits covering the
CADE 2 Program Management Office and Daily Processing.5
This review was performed at the Modernization and Information Technology Services
organization facility in New Carrollton, Maryland, during the period January through May 2011.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
  Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer Account Administration (Reference
Number 2011-20-001, dated November 24, 2010).
5
  The Customer Account Data Engine 2 Program Management Office Implemented Systems Development
Guidelines; However, Process Improvements are Needed to Address Inconsistencies (Audit # 201020025), draft
report dated August 11, 2011; and The Customer Account Data Engine 2 Is Making Progress Towards Achieving
Daily Processing, but Improvements Are Warranted to Ensure Full Functionality (Audit # 201120001), draft report
dated August 9, 2011.
                                                                                                        Page 2
                                    The Customer Account Data Engine 2
                              Database Implementation Project Made Progress
                             in Design Activities, but Improvements Are Needed




                                       Results of Review

The Database Implementation Project Made Progress to Complete
Design Activities and Address Security and Privacy Controls
The CADE 2 Database Implementation Project team made progress toward implementing a new
database that will house all individual taxpayer accounts and provide the ability for IRS
employees to view the updated account information online. In addition, security and privacy
controls will be implemented as necessary to protect taxpayer information.
The Database Implementation Project team accomplished key activities to complete the
preliminary and detailed designs6 of the CADE 2 database and to ensure the design considered
security and privacy controls. For instance, the Database Implementation Project team took
actions to close open issues from the CADE 2 database ETL prototype projects. A dedicated
team was formed to address business requirements and business rules issues. Also, an improved
Project team and Cybersecurity organization partnership addressed Database Implementation
security and privacy controls.

The Database Implementation Project team closed issues identified from the
prototypes
One of the primary objectives of the Database Implementation Project is to resolve outstanding
issues from the CADE 2 database ETL prototypes. The Database Implementation Project team
conducted analyses and tests that resulted in simplifying complex transformation rules and
improved database performance. Simplifying transformation rules improves transformation
performance, which is the measurement of the time it takes to transform the data in preparation
for loading into the CADE 2 database.
In order for the CADE 2 Program to meet business requirements, the CADE 2 system daily
updates must be completed in 6 hours. The CADE 2 Database Implementation ETL
Performance prototype indicated that it will take 12.81 hours during weekly peak days and
8.94 hours during typical days. The Database Implementation Project team further closed the
performance gap between the allocated 6-hour processing window and the prototype projections
by a combination of optimizing the hardware, system, and product configurations and revision of
the application code.



6
 Enterprise Life Cycle Milestone 3 is the preliminary (i.e., logical) design of all solution components and
Milestone 4a is the detailed (i.e., physical) design of solution components.
                                                                                                              Page 3
                                  The Customer Account Data Engine 2
                            Database Implementation Project Made Progress
                           in Design Activities, but Improvements Are Needed



A dedicated team was formed to address business system requirements and
business rules
Gathering and developing business system requirements and business rules are the responsibility
of the Program Management Office up to Milestone 2 and are critical as they serve as the
foundation for the system’s preliminary and detailed design. At Milestone 3, the business system
requirements were provided to the Database Implementation Project team to further decompose
(i.e., break down into component parts) for the preliminary and detailed designs. Business rules
are developed from requirements. However, the general state of the requirements was not
sufficient to begin this work. Therefore, a dedicated team was formed to address the business
system requirements and business rules. The Database Implementation Project team developed
the CADE 2 Database Implementation Analyst Handbook and a framework tool for collecting
business rules. The CADE 2 Database Implementation Analyst Handbook in conjunction with
the Requirements Management Plan and the Requirements and Demand Management
Requirements Handbook provides guidelines, principles, best practices, and techniques for
business rules development for the Milestone 4a detailed design.
In addition, the Database Implementation Project team completed deep dives and a series of
integrated design reviews7 between September 2010 and April 2011 to assess whether design
plans were consistent with requirements. A collaborative team identified a total of 88 design
issues. These efforts, along with the business system requirements and business rules process
improvements, contributed to closing 84 of the 88 open issues. The remaining four design
issues8 were still open as of April 18, 2011, the detailed design milestone exit date. One issue
was closed in early May 2011, and the three remaining design issues were expected to be closed
by the end of May 2011.

An improved Project team and Cybersecurity organization partnership addressed
Database Implementation security and privacy controls
In November 2010 the TIGTA reported that, as the work progressed, the prototype teams gave
more consideration to security provisions and a foundation was laid for providing more
opportunities for the Cybersecurity organization’s involvement in CADE 2 design activities.9
Our review of CADE 2 Database Implementation Project preliminary and detailed design
activities showed that the Cybersecurity organization was heavily engaged and proactive in its
assigned role of managing all aspects of CADE 2 security. From the onset, a technical leader
from the Cybersecurity organization and Privacy office was assigned to the Database
Implementation Project team to coordinate and ensure alignment and compliance with enterprise


7
  See Appendix V for CADE 2 Integrated Design Reviews.
8
  See Appendix VII for Database Implementation Design Issues in pending status.
9
  Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer Account Administration (Reference
Number 2011-20-001, dated November 24, 2010).
                                                                                                       Page 4
                                    The Customer Account Data Engine 2
                              Database Implementation Project Made Progress
                             in Design Activities, but Improvements Are Needed



standards in the areas of security and privacy. This included participating in the development of
the security and privacy requirements.
When the CADE 2 Program Management Office expressed concern that encrypting data from
the IMF to the CADE 2 database would slow performance, the Cybersecurity organization
completed a risk assessment and, based on compensating controls, agreed with a risk-based
decision not to require Enterprise File Transfer Utility encryption.
The Cybersecurity organization created a threat model to understand the attackable surface, entry
points, trust boundaries, Sensitive but Unclassified data stores, entities, processes, and data paths
of the system. Also, they developed a Live Data Risk Mitigation Strategy that provides a
standardized process for: 1) developing CADE 2 Live Data Guidance, 2) working with the
Privacy office, and 3) tracking all live data requests through its life cycle, as oversight. This
strategy addresses concerns reported in the above-referenced TIGTA report that contractors were
allowed to work with live taxpayer data without adequate request documentation.
Security and privacy deliverables, which included the security and privacy section of the
CADE 2 Database Implementation Design Specification Report (DSR), Security Risk
Assessments, and Privacy Impact Assessments, were adequate and completed timely, as
required. For instance, our review of the CADE 2 Database Privacy Impact Assessment showed
that taxpayer privacy protection was adequately considered in the design. Also, our review of
the Security Risk Assessments showed areas of potential security risks10 are being resolved or
mitigated and are adequately monitored by the Cybersecurity organization.
Even though some security and privacy aspects of the Database Implementation system had not
been specified at the completion of the physical design,11 we are confident they will be
considered prior to testing because of the improved collaborative partnership among the Project
team and Cybersecurity organization. Also, the operation and effectiveness of security controls
will be evaluated in a future audit of the CADE 2 system.

Improvements Are Needed to Ensure Timely Delivery of Key Activities
Despite overall progress, improvements are needed to ensure timely delivery of key activities,
such as the CADE 2 Database Implementation DSR, the IRS CADE 2 Database Implementation
Audit Plan, and database trial initializations. The CADE 2 Database Implementation Project is
following the Enterprise Life Cycle (ELC) Iterative Path. See Figure 1 for a depiction of the
Iterative Path approach to information technology project development. In the Iterative Path


10
   Security risks are based on selected security controls from the Internal Revenue Manual as well as from
Recommended Security Controls for Federal Information Systems and Organizations (National Institute of
Standards and Technology Special Publication 800-53).
11
   Some decisions regarding the ultimate design of the technical infrastructure, boundary authority, and daily update
application architecture components are required in order to define security controls at a sufficient level of detail.
                                                                                                              Page 5
                                    The Customer Account Data Engine 2
                              Database Implementation Project Made Progress
                             in Design Activities, but Improvements Are Needed



development life cycle, projects start with initial planning and end with deployment, with
repeated cycles of requirement discovery, development, and testing in between, compared to the
traditional Waterfall Path that is distinguished by sequential development of a solution with
planned reviews and formal approvals required before continuation of work.12 The ELC allows
for tailoring. Tailoring is customization of the ELC and its various features for use by an
individual project. The objective is to arrive at an approach that is based on standard methods
that have been modified (as necessary) to take into account the specific needs and unique
conditions of the project. The intent of tailoring is not to fit a project into the constrictions of the
ELC, but to adapt the ELC so that it is practical and effective given the realities of the project.
The Database Implementation Tailoring Plan defines the Project’s plan to satisfy the
requirements following the ELC and includes the deliverables and work products necessary to
support the iterative approach to information technology project development.
                 Figure 1: Iterative Path Approach to Information Technology
                                      Project Development




Source: Enterprise Operations New Hire Orientation presentation, dated February 10, 2011.

As required by the ELC framework, key design activities, such as the DSR and audit plan, were
not completed as scheduled.

The Database Implementation Design Specification Report was not completed as
planned
The CADE 2 Database Implementation DSR documents the application design, data design,
technical infrastructure, and traceability to the requirements. It also describes the design based
on a defined scope and the business system requirements that are described in the CADE 2
Project Charter, the CADE 2 Database Implementation Business System Report, and the CADE
2 Program Roadmap.


12
     See Appendix IV for an overview of the ELC.
                                                                                                 Page 6
                                     The Customer Account Data Engine 2
                               Database Implementation Project Made Progress
                              in Design Activities, but Improvements Are Needed



The Database Implementation Project Tailoring Plan showed that the DSR will be finalized in
Milestone 4a and did not provide for an update in Milestone 4b. However, the DSR was not
finalized prior to exiting Milestone 4a because of the dependency on pending design issues,13
such as transformation rules, Integrated Production Model design, and Process Automation and
Monitoring design.
The Project team used the ELC tables and did not realize it did not include DSR updates in
Milestone 4b. The ELC tables list the Milestone phase artifacts (i.e., the tangible result or output
of an activity or task performed by a project during the life cycle). There are several updates
planned for the DSR during Milestone 4b. The ELC provides that project teams should be aware
that other artifacts (not included in the ELC tables) may be required and/or necessary for their
particular project. The ELC tables should not be considered all-inclusive. Also, although
artifacts may be initiated in one phase, they are subsequently reviewed and may be updated
throughout later phases of the ELC. Since the Project is following the Iterative Path, we would
expect the DSR to be updated during Milestone 4b for necessary design changes as a result of
testing.
The IRS maintains that the ELC Iterative Path was adopted and implemented earlier this year
with a clear understanding that it would need to be tailored in the near term to accommodate
project needs and to leverage more effectively the experience of key stakeholders with
pre-existing development approaches (e.g., Waterfall). As such, lessons learned from the project
teams using the new iterative path would be relied on and captured to enable revision of the path
(and associated artifacts) to establish a viable and effective iterative development approach.
In addition, the Chief Architect provided the perspective that the iterative development of the
DSR was a major step forward for the IRS ELC. The path the Database Implementation Project
chose enabled a wide audience from business, engineering, development, and test to get a good
look at the design, and then focus on the critical areas of the design and resolution of design
issues. A traditional Waterfall would have limited the review time and locked the design with
some poor design choices. The TIGTA agrees and believes as the IRS matures in its
implementation of the Iterative Path development life cycle, the ELC and its execution will be
more aligned.
In addition, the CADE 2 Transition State 1 Transformation Rules were incomplete.
Transformation Rules are one of several items used by the ETL Program to transform individual
taxpayer accounts from IMF flat-file formats and current CADE relational database formats (for
the one-time initialization) to the formats and structures defined for the CADE 2 database. Our
review of this documentation found missing file layout identification information. Project
management indicated that this document would be completed by May 31, 2011, during
Milestone 4b.


13
     See Appendix VII for the Database Implementation Design Issues in Pending Status.
                                                                                             Page 7
                               The Customer Account Data Engine 2
                         Database Implementation Project Made Progress
                        in Design Activities, but Improvements Are Needed



The Database Implementation Project Audit Plan was not completed timely
As discussed earlier, security deliverables were generally completed timely, except in this case.
The IRS CADE 2 Database Implementation Audit Plan was not finalized as required prior to
exiting Milestone 4a on April 18, 2011. The audit plan describes how audit trail requirements
will be met for the CADE 2 Database Implementation. Audit trails are key to achieving several
security-related goals, including supporting individual accountability, detecting application
intrusions and other forms of abuse, and allowing analysis and reconstruction of the sequences of
events for effective security incident response. In addition, the development of a comprehensive
audit plan supports the IRS’s goal to resolve its Computer Security Material Weakness on audit
trails and related TIGTA and Government Accountability Office findings.
We identified information gaps in the following areas of the IRS CADE 2 Database
Implementation Audit Plan: Daily Processing/Database Implementation Balance and Control,
Error Handing, and Enterprise Informatica Platform. The Cybersecurity Information Technology
Security Requirements Overview guidelines state the final IRS CADE 2 Database
Implementation Audit Plan should be submitted as part of the security package for the
Milestone 4a exit. Because many configuration details in the areas provided above were not yet
available, the audit plan was not finalized and submitted prior to the CADE 2 Milestone 4a exit.
Timelines of security deliverables are critical to ensure validation, testing, and overall risk
assessment can be performed in a timely manner.

Database trial initializations were not completed as scheduled
The purpose of the CADE 2 database trial initializations is to assess and address performance
and data quality issues prior to production implementation. Initialization of the CADE 2
database will be performed in phases. During the first phase, database trial initializations were
originally planned to begin in March 2011 and April 2011. The duration of the database trial
initialization was planned for 6 months, with the formal database initialization beginning
October 2011. Meanwhile, there would be a number of iterative database trial initializations
increasing in volume and complexity until September 2011.
However, the database trial initializations were delayed, and a new schedule to complete this
activity was not finalized prior to the completion of our fieldwork in May 2011. Personnel from
the Modernization and Information Technology Services Application Development office cited
the following reasons for the delay: delays in getting the testing environment ready, delays in
awarding the Informatica contract, and late resolution of the Enterprise File Transfer Utility
issue.
Not performing the database trial initializations as originally planned may impact the quality of
testing efforts. For instance, there will be only a limited amount of time for further performance
tuning and identifying data anomalies. Also, there may be less time to address data quality
business rules and take corrective actions prior to production deployment.

                                                                                            Page 8
                               The Customer Account Data Engine 2
                         Database Implementation Project Made Progress
                        in Design Activities, but Improvements Are Needed



We are concerned with the number of key activities that were not completed as scheduled and
were instead postponed to Milestone 4b. With an already aggressive schedule, these delays
could put the CADE 2 Transition State 1 scheduled dates for coding, testing, and certification at
jeopardy and the “go-live” date of January 2012 for Database Implementation could be at risk.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Ensure key activities and deliverables (including security deliverables)
for the Database Implementation Project are completed timely and, if not, ensure an assessment
is made to determine the impact or risk of not completing the required activity.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       ensure key milestone activities and deliverables (including security deliverables) for the
       Database Implementation Project are completed timely and, if not, ensure an assessment
       is made to determine the impact or risk of not completing the required activity. If it is
       determined that there are impacts that put the project at risk, they will be documented and
       mitigated through the risk process currently in place.
Recommendation 2: Ensure the Internal Revenue Manual (IRM) 2.16.1, Enterprise Life
Cycle Guidance, is kept current and includes all artifacts that are needed for projects following
the Iterative Path.
       Management’s Response: The IRS disagreed with this recommendation. IRS
       management stated that the Enterprise Life Cycle Guidance in IRM 2.16.1 is already
       current, and is kept current through an annual update process. The IRM already reflects
       the artifacts required for projects following the Iterative Path. When projects proceed
       through milestone reviews without the artifacts identified in the IRM for their respective
       development path, they do so under a tailored plan consistent with the practice also
       outlined in the IRM guidance. A deviation from standard development path, or tailored
       plan, can be allowed through normal risk-based decision processes (e.g., either executive
       or governance decisions) with supporting documentation.
       Office of Audit Comment: The TIGTA found that the IRS’s project tailoring plan
       contained the artifacts from the IRM and was not subsequently updated to include an
       updated artifact based on the Iterative Path approach. As a result, the TIGTA maintains
       that the IRM needs to be updated to make the guidance more effective in managing
       projects following the Iterative Path. Until the IRM guidance can be revised during the
       next annual update cycle, the IRS should consider sending out additional guidance based
       on lessons learned.




                                                                                            Page 9
                               The Customer Account Data Engine 2
                         Database Implementation Project Made Progress
                        in Design Activities, but Improvements Are Needed



Interface Control Documents and the Integrated Master Schedule Do
Not Comply With All Enterprise Life Cycle Criteria
The ELC is the approach used by the IRS to manage and implement business change through
information systems initiatives. The ELC provides the direction, processes, tools, and assets
necessary to accomplish business change in a consistent and repeatable manner. An objective of
the ELC is to help ensure project and program success by reducing risk and ensuring compliance
with applicable internal and external standards and mandates.

Interface Control Documents did not always meet established standards
The Interface Control Document is an agreement among multiple organizations that must
collaborate to produce a solution regarding design of the interface. The CADE 2 Database
Implementation Project team completed three Interface Control Documents for Milestone 4a:
   •   Daily Processing and Database Implementation.
   •   Database Implementation and Integrated Production Model.
   •   Database Implementation and Integrated Data Retrieval System.
Although all of the Database Implementation Interface Control Documents contained the proper
approvals, the documents did not always meet ELC standards. For example, key document
elements were either missing or did not provide the necessary details describing the
interface processes, and specific interface controls for error handling performed by the interfaces
were not provided. The Database Implementation Project manager stated that error checking
will be performed on each side of the two interfaced systems. The interface-related errors should
be included in the Database Implementation Interface Control Document, but the engineering
team decided they would include this information only in the DSRs. Also, there was no
information on interface issues. Project management stated that all of the design issues were
kept in a separate document on the Project SharePoint site and issues were addressed during two
Customer Technical Reviews.
Although the Interface Control Documents included capacity and performance requirements,
there was no mention of service-level, operational-level, or any other type of agreement as
required by the ELC. The purpose of these types of agreements is to ensure that coordination
efforts are well understood and there are no missing gaps. Project management stated that they
coordinated with the ELC Program Management Office in preparing the Database
Implementation Interface Control Documents. The Service Level Agreement is required for a
system to communicate with an external (non-IRS) system. It is not required for an IRS system
to communicate with another IRS system. Usually, the Memorandum of Understanding or
Uniform Work Request is used within the IRS. The process owner of the Interface Control
Documents advised they never complete the Service Level Agreement in the Interface Control
Document for internal systems. Also, for CADE 2, they are creating a Master Service Level
                                                                                           Page 10
                               The Customer Account Data Engine 2
                         Database Implementation Project Made Progress
                        in Design Activities, but Improvements Are Needed



Agreement for the Enterprise Informatica Platform, which would cover the Database
Implementation Project. This is inconsistent with the ELC and IRS procedures that provide for
the use of operational agreements for an IRS system communicating with another IRS system.
Further, references in the Interface Control Documents were not current. Older versions of
design documents were provided in the References section of the document and referenced
throughout the document when a more current version existed. For example, when we reviewed
the Interface Control Documents for specific details on interface controls for error handling, the
documents referenced an older version of the Daily Processing DSR. Project management stated
that this occurred because the Database Implementation Project had focused a lot on the content
and forgot to update the References section.
When the Interface Control Documents have missing or insufficient information, an end-to-end
view of the interface process cannot be obtained and there is no assurance that systems have been
adequately designed to ensure interface implementation testing.
Management Action: In June 2011, the Database Implementation Project team improved the
Interface Control Documents by including previously omitted items and up-to-date references.

Work Breakdown Structure is not complete
The CADE 2 Database Implementation Project team did not adhere to all ELC criteria with
regard to defining and maintaining the Integrated Master Schedule (IMS). The IMS contains a
Work Breakdown Structure (WBS). The WBS is a project management tool used to define and
group a project’s individual work elements (or tasks) in a way that helps organize and define the
total work scope of the project. In conjunction with the Database Implementation Project team’s
decision to follow the ELC Iterative Path, they used a methodology called “rolling wave,” which
is a project management technique that involves progressive elaboration to add detail to the WBS
on an ongoing basis. At the beginning of the project, near term deliverables are decomposed into
individual components and defined at the greatest level of detail.
The Project team indicated that they did not have sufficient knowledge at project inception to
accurately define and develop the WBS. IRS guidelines recognize the inherent challenges with
building a project WBS that incorporates the entire lifecycle of the project, noting that a project
WBS represents the scope of the project from beginning to end, to the best of the team’s ability
at the time of creation. IRS guidelines further state that the detailed decomposition of WBS
elements is often not known during the initial creation of the project WBS. It is acceptable to
leave these generic WBS elements in the project WBS without further decomposition. It is
important to reflect them in the WBS from the beginning to provide visibility to the entire scope
of the project.
The Database Implementation Project Tailoring Plan contains deliverables identified through
Milestone 5 (project completion) that are not reflected in the initial WBS or subsequent iterations
through Milestone 4a. To comply with the Modernization and Information Technology Services

                                                                                            Page 11
                                  The Customer Account Data Engine 2
                            Database Implementation Project Made Progress
                           in Design Activities, but Improvements Are Needed



organization’s Work Breakdown Structure Template Tailoring Procedure, the initial WBS should
have reflected all of the deliverables identified in the WBS Tailoring Plan through Milestone 5.
We previously reported this same condition in our review of the CADE 2 Program Management
Office14 and recommended that the Chief Technology Officer ensure the IMS includes all key
activities associated with the development and deployment of the CADE 2 System, including the
Database Implementation Project.
Development of a comprehensive WBS is a critical factor for project success. Equally as
important is performing regular status updates as well as schedule analysis. IRS guidelines
recommend these activities be conducted weekly and require they be done no less than twice a
month. While the Database Implementation Project monitored the critical path on a weekly
basis, the naming conventions of the deliverables/activities in the weekly Critical Path Summary
report were not consistent with the naming conventions in the IMS. This may be attributed to the
fact that the IMS is in a different format from the Critical Path Summary report. Discrepancies
in naming conventions make it difficult to reconcile the activities on the Critical Path Summary
report. Delays in completing activities on the critical path can impede the January 2012
scheduled deployment date.
Management Action: In July 2011, The IRS updated the Database Implementation section of
the IMS for Milestone 4b to mitigate the differences in naming conventions. Specifically, the
IRS added a column on the Critical Path/Key Task Summary called “IMS Unique Identifier, i.e.,
UID” to further clarify and cross-reference the tasks contained in the Critical Path Summary in
relation to the IMS.

Recommendations
The Chief Technology Officer should:
Recommendation 3: Ensure future versions of the Database Implementation Project’s
Interface Control Documents meet ELC standards by including accurate and adequate
information on document references, interface controls, error handling, and issues.
Management’s Response: The IRS agreed with this recommendation. The Database
Implementation Project’s Interface Control Documents use templates that meet ELC standards.
Improvements have been made to Interface Control Documents for Milestone 4a to include
previously omitted items and up-to-date references.




14
  The Customer Account Data Engine 2 Program Management Office Implemented Systems Development
Guidelines; However, Process Improvements Are Needed to Address Inconsistencies (Audit # 201020025), draft
report dated August 11, 2011.
                                                                                                     Page 12
                              The Customer Account Data Engine 2
                        Database Implementation Project Made Progress
                       in Design Activities, but Improvements Are Needed



Recommendation 4: Ensure that the Interface Control Document guidance on Service Level
Agreements is consistent with processes being followed by the project.
       Management’s Response: The IRS agreed with this recommendation. The
       Associate Chief Information Officer, Enterprise Services, will review and clarify the
       Service Level Agreements section of the Interface Control Document guidance.
Recommendation 5: Ensure that appropriate and consistent naming conventions are used in
future IMS and related documents to ensure activities can be traced between these documents.
       Management’s Response: The IRS agreed with this recommendation. To mitigate
       this in future milestones, starting in Milestone 4b, the IRS has included a column on
       the Critical Path/Key Task Summary called “IMS UID,” which will clarify and
       cross-reference the tasks contained in the IMS.




                                                                                         Page 13
                                    The Customer Account Data Engine 2
                              Database Implementation Project Made Progress
                             in Design Activities, but Improvements Are Needed



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to review the preliminary and detailed designs1 of the
CADE 2 database2 and ensure that the database is designed in a secure manner, the design
satisfies the stated requirements, and project management practices adhere to ELC standards and
processes for the related design milestones. There were tests that we could not perform because
the activity was moved to Milestone 4b, which was outside the scope of this review. To
accomplish our objective, we:
I.       Reviewed the ETL controls for ensuring the accuracy and completeness of the CADE 2
         database.
         A. Interviewed project staff to obtain an understanding of plans for creating and updating
            the CADE 2 database and controls for ensuring data accuracy and completeness.
             1. Discussed any gaps or missing requirement areas (i.e., contingency planning,
                incident response, disaster recovery, etc.) and their impact.
             2. If not indicated in the documents reviewed in I.B. below, determined how
                business rules and the tax code will be maintained.
         B. Identified and reviewed key design documents.
         C. Using information obtained in I.A. and I.B. and other supporting documentation,
            assessed whether design plans are consistent with the stated requirements.
         D. Determined if identified database ETL issues were resolved, including issues
            identified from prototyping efforts.
             1. Reviewed ETL prototype status reports, the CADE 2 database ETL prototype and
                the CADE 2 Database Performance Test Prototype Final Report, version 1, dated
                October 2010, to identify outstanding issues.
             2. Obtained documentation on the resolution of outstanding issues, including
                Engineering Alternative Analysis Reports (i.e., the CADE 2 ETL Performance
                Alternative Analysis Report, dated September 2010).



1
  Enterprise Life Cycle Milestone 3 is the preliminary (i.e., logical) design of all solution components and
Milestone 4a is the detailed (i.e., physical) design of solution components.
2
  See Appendix VIII for a glossary of terms.
                                                                                                               Page 14
                              The Customer Account Data Engine 2
                        Database Implementation Project Made Progress
                       in Design Activities, but Improvements Are Needed



       E. Determined if the Database Implementation Project will meet projected time periods
          for initializing the database trial initializations.
       F. Determined to what extent the Project has addressed the dependency upon the
          development of business rule sets/rules for addressing the IMF data transformation
          and data quality issues and anomalies.
II.    Determined if systems and interfaces affected by Database Implementation have been
       adequately addressed to minimize system impact.
       A. Interviewed Project staff to obtain an understanding of the work performed to
          adequately address Database Implementation-affected systems and interfaces and
          related Project dependencies.
          1. Identified supporting integration analysis, design, and testing documentation.
          2. Identified any issues from reliance on existing legacy design documentation for
             the affected systems (e.g., Programming Requirements Package, Functional
             Specification Package, Core Record Layout, etc.).
       B. Determined if Interface Control Documents exist for all Database Implementation
          interface systems (Daily Processing, the Integrated Data Retrieval System, and the
          Integrated Production Model) and are adequately designed to ensure interface
          implementation testing.
       C. Evaluated interface processing controls (including inputs/outputs) to ensure that
          system interfaces are secure.
       D. Determined if the IMS dependencies on other subordinate schedules and Project
          dependencies on Delivery Partners are properly managed.
III.   Determined if the appropriate security and privacy controls had been considered and
       timely included in the CADE 2 Database Implementation design.
       A. Interviewed Program and Project management staff to determine if Project staff and
          Cybersecurity office personnel were involved in the development of security and
          privacy controls.
       B. Reviewed security and privacy documentation at the Program and Project levels to
          identify the controls applicable to Database Implementation. Documents reviewed at
          the Program level included: Security Framework, Security Strategy, and Privacy
          Strategy. Documents reviewed at the Project level included the Business System
          Report, DSR, Privacy Impact Assessment, and System Security Plan.
       C. Using information obtained in III.A., III.B., and the WBS, determined if security
          deliverables were completed timely and, if not, assessed the effect.


                                                                                         Page 15
                                  The Customer Account Data Engine 2
                            Database Implementation Project Made Progress
                           in Design Activities, but Improvements Are Needed



        D. Reviewed the security categorization criteria prescribed by Federal Information
           Processing Standards Publication 1993 and National Institute of Standards and
           Technology Special Publication 800-604 and determined if the security
           categorizations the IRS assigned to the CADE 2 Database Implementation are
           documented and supported.
        E. Reviewed the Database Implementation System Security Plan for Milestones 3 and
           4a.
        F. Reviewed the Privacy Impact Assessment to ensure that privacy protection is
           considered in the design.
IV.     Determined if Project management practices adhere to ELC standards and processes for
        the related design milestones.
        A. Determined if a Project Charter exists that clearly defines the scope, vision, system
           objectives, and potential impact on organizational culture and existing processes.
        B. Determined if a Project plan was created to manage system design project efforts and
           is properly updated.
            1. Reviewed the Database Implementation Project Management Plan to ensure it has
               been properly updated.
            2. Reviewed the WBS and identified if Project time periods were defined and
               achieved, critical phases were present, and management approvals were present.
        C. Determined if Project risks were assessed and appropriately mitigated.
        D. Determined if there are well-defined system requirements by reviewing requirements
           management documentation obtained from the CADE 2 Program Management Office
           team and Project-level system requirements documentation. Also, we determined if
           requirements were analyzed for compliance with Federal Government regulations,
           internal control policies, and security procedures and if requirement approval is
           formally documented by all key stakeholders and by governance or steering
           committees.
        E. Determined if requirement changes are controlled by evaluating if changes to system
           requirements are verified.




3
 Standards for Security Categorization of Federal Information and Information Systems, published February 2004.
4
 Guide for Mapping Types of Information and Information Systems to Security Categories, Volume 1, Revision 1,
published August 2008.
                                                                                                       Page 16
                              The Customer Account Data Engine 2
                        Database Implementation Project Made Progress
                       in Design Activities, but Improvements Are Needed



       F. Determined what metrics are used for assessing Project quality assurance by
          reviewing the CADE 2 Program Performance and Quality Management Plan and
          related documentation.
       G. Evaluated contingency planning efforts to ensure all Project contingencies are
          properly addressed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the ELC and related IRS guidelines and
the processes followed in the development of information technology projects. We evaluated
these controls by conducting interviews and meetings with management and staff, attending
CADE 2 meetings of the Program and Project teams, and reviewing Project documentation such
as the Project Charter, various Project plans, and other documents which provided evidence of
whether ELC systems development processes were followed.




                                                                                           Page 17
                             The Customer Account Data Engine 2
                       Database Implementation Project Made Progress
                      in Design Activities, but Improvements Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Diana M. Tengesdal, Acting Director
Kimberly R. Parmley, Audit Manager
K. Kevin Liu, Acting Audit Manager
Esther M. Wilson, Lead Auditor
Jena R. Whitley, Senior Auditor
David F. Allen, Program Analyst
Michael T. Mohrman, Information Technology Specialist




                                                                                     Page 18
                             The Customer Account Data Engine 2
                       Database Implementation Project Made Progress
                      in Design Activities, but Improvements Are Needed



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Associate Chief Information Officer, Modernization – Program Management Office
OS:CTO:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Risk Management Division OS:CTO:SP:RM
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Wage and Investment Division SE:W:S:PEI
   Director, Risk Management Division OS:CTO:SP:RM




                                                                                 Page 19
                               The Customer Account Data Engine 2
                         Database Implementation Project Made Progress
                        in Design Activities, but Improvements Are Needed



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The ELC is the IRS’s standard approach to business change and information systems initiatives.
It is a collection of Program and Project management best practices designed to manage business
change in a successful and repeatable manner. The ELC addresses large and small projects
developed internally and by contractors.
The ELC includes such requirements as:
   •   Development of and conformance to enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’s ability to manage changes to the enterprise, estimate the
cost of changes, and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the phases and milestones within the ELC. A phase is a broad segment of work
encompassing activities of similar scope, nature, and detail and providing a natural breakpoint in
the life cycle. Each phase begins with a kickoff meeting and ends with an executive
management decision point (milestone) at which IRS executives make “go/no-go” decisions for
continuation of a project. Project funding decisions are often associated with milestones.




                                                                                          Page 20
                                   The Customer Account Data Engine 2
                             Database Implementation Project Made Progress
                            in Design Activities, but Improvements Are Needed



                    Figure 1: Enterprise Life Cycle Phases and Milestones

                Phase                                   General Nature of Work                         Milestone

 Vision and Strategy/                  High-level direction setting. This is the only phase for
                                                                                                           0
 Enterprise Architecture Phase         enterprise planning projects.
 Project Initiation Phase              Startup of development projects.                                    1
                                       Specification of the operating concept, requirements, and
 Domain Architecture Phase                                                                                 2
                                       structure of the solution.
 Preliminary Design Phase              Preliminary design (logical design) of solution components.         3
 Detailed Design Phase                 Detailed design (physical design) of solution components.          4A
 System Development Phase              Coding, integration, testing, and certification of solutions.      4B
                                       Expanding availability of the solution to all target users.
 System Deployment Phase                                                                                   5
                                       This is usually the last phase for development projects.
                                                                                                        System
 Operations and Maintenance Phase      Ongoing management of operational systems.
                                                                                                       Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                                         Page 21
                                The Customer Account Data Engine 2
                          Database Implementation Project Made Progress
                         in Design Activities, but Improvements Are Needed



                                                                                   Appendix V

                   Customer Account Data Engine 2
                     Integrated Design Reviews

Integrated Review                  Outcomes


Deep Dive Logical Design           The Deep Dive Logical Design Review validates that proposed project
Review (3 Part)                    solutions are sound and adhere to the CADE 2 Program design
                                   principles and the CADE 2 Program Roadmap and Architectural
September 28, 2010 –
                                   Components.
October 3, 2010

Integrated Logical Design          The Integrated Logical Design Review validates that the project-level
Review                             designs support the solution’s logical implementation as defined in the
                                   Program Roadmap and that the projects collectively will deliver an
November 2010                      integrated and cohesive solution.

End-to-End Logical Design          The End-to-End Logical Design Review gains leadership and oversight
Review                             confidence that the solution will be successful and captures any
                                   Milestone 3 Logical Design issues and action items.
December 2010


CADE 2 Database                    The CADE 2 Database Implementation End-to-End Physical Design
Implementation End-to-End          Review provides an understanding of the Database Implementation DSR
Physical Design Review             and Interface Control Documents key components and gains knowledge
                                   of what is included in each section of the documents for the stakeholder
February 2011                      review.


CADE 2 Transition State 1          The CADE 2 Transition State 1 Physical Design Review gains
Physical Design Review             confidence that the Transition State 1 solution will be successful,
                                   captures any Milestone 4a Physical Design issues and action items, and
April 2011                         ensures common understanding of next steps in Milestone 4b.
Source: The IRS CADE 2 Integrated Design Review Documentation.




                                                                                           Page 22
                                     The Customer Account Data Engine 2
                               Database Implementation Project Made Progress
                              in Design Activities, but Improvements Are Needed



                                                                                                     Appendix VI

Customer Account Data Engine 2 Transition Strategy

     Figure 1: Description of CADE 2 Transition Strategy Achievements and Goals1

                                                       Architectural
    State      Business Achievement                                                    Related Program Goal
                                                       Achievement
    TS 1    • Reduced risk and cost of           • Target database deployed • Move to relational database processing
              operating two environments           and proven to accept all   that provides a solid data foundation for
              for individual taxpayer              current-state account      the future and away from sequential,
              account processing.                  conditions.                flat-file processing.
            • Timelier response to               • Target database provides     • Demonstrate substantive progress
              taxpayers with refunds,              source for online              toward achieving long-term viability.
              notices, and information.            viewing.                       o Complete migration of data from
            • Reduction of manual                • Target database used to          current CADE and IMF into a single,
              processes related to weekly          feed critical downstream         complete relational database.
              processing of individual             functions, establishing        o Create opportunities for new
              taxpayer accounts.                   target-state architectural       enforcement and service business
                                                   pattern for bulk data            processes that rely on a more
                                                   distribution.                    complete, reliable database.

    TS 2    • Financial material weaknesses • Target application                • Address financial material weaknesses,
              associated with individual      framework developed                 demonstrate compliance with Federal
              taxpayer account processing     and deployed.                       Financial Management System
              addressed.                    • Target technology                   Requirements, and maintain a clean
                                              framework developed                 audit opinion.
                                              and deployed.                     • Improve security and privacy posture
                                                                                  by addressing critical weaknesses with
                                                                                  the core tax account processing
                                                                                  application.

Target • To improve business                • Target applications               • Continue the focus on moving away
              processes that rely on timely   completed.                          from 1960’s technology (i.e., aging
              and accurate individual       • Transitional components             infrastructure and applications).
              taxpayer account information.   retired.
Source: The IRS CADE 2 Academy, Program, Strategies, Architecture and Transition, January 2011. Note: TS =
Transition State.




1
    See Appendix VIII for a glossary of terms.
                                                                                                                Page 23
                                 The Customer Account Data Engine 2
                           Database Implementation Project Made Progress
                          in Design Activities, but Improvements Are Needed



                 Figure 2: Flow Chart of the CADE 2 Transition Strategy




Source: The IRS CADE 2 Academy, Program, Strategies, Architecture and Transition, January 2011. Note:
Figure presents conceptual models of the Current State, Transition States 1 and 2, and Target State processing
flows for individual income tax account. AMS = Accounts Management Services. CFOL = Corporate Files On-
Line. IDRS = Integrated Data Retrieval System. IPM = Integrated Production Model. R2 CPE = Return to
Current Processing Environment.



                                                                                                       Page 24
                               The Customer Account Data Engine 2
                         Database Implementation Project Made Progress
                        in Design Activities, but Improvements Are Needed



                                                                                            Appendix VII

                     Database Implementation
                   Design Issues in Pending Status


      Title                                    Description                                   Target Date

 Mapping           Document in the Database Implementation Design Specification             5/31
 Transformation    Report that describes how Informatica mappings apply the                 on target
 Rules to          transformation rules, as well as how complexity, performance, and
 Informatica       reusability are addressed.
 Implementation
 Details           Provides a description of the transactional boundaries for both a
                   logical unit of work (e.g., accounts and modules) and the operational
                   units of work (e.g., commit intervals).


 Residual          The current design has not been completed for physical design of the     5/31
 Current CADE      retention and printing of Government Accountability Office transcripts   on target
 Data              in the current CADE database.
 (Dependency)


 Integrated        Various areas of the design cannot be finalized until the Integrated     5/31
 Production        Production Model design is finalized.                                    on target
 Model Design
 (Dependency)


 Process           Finalize documentation of physical design for the Process Automation     Closed on 5/6
 Automation        and Monitoring.
 and Monitoring
 Design

Source: The IRS CADE 2 Milestone 4a Design Pending Issues, dated May 11, 2011.




                                                                                                        Page 25
                              The Customer Account Data Engine 2
                        Database Implementation Project Made Progress
                       in Design Activities, but Improvements Are Needed



                                                                              Appendix VIII


                               Glossary of Terms

Term                 Definition
Balance and          Refers to the overall mechanism for accumulating and checking counts and
Control              amounts to ensure overall processing integrity.
Business Rule        A statement that defines or constrains some aspect of the business (see
                     Business Rule Set).
Business Rule Set    A group of business rules related to a common topic or business decision.
Business System      A document containing the end-state vision and solution concept, the
Report               architecture, and the requirements analysis that form the basis for
                     subsequent solution design, development, integration, testing, and
                     deployment of the system. This document is comprised of three principal
                     sections: Business Systems Concept, Business System Architecture, and
                     Business System Requirements.
Corporate Files      A system that provides online transactional access to IMF and Business
On-Line              Master File data, Information Return Program data, and various other
                     related data collections. These files are accessed via IRS-developed
                     Customer Information Control System command codes.
Current Processing   The IRS’s existing entire information technology environment including
Environment          business applications, data stores, data interfaces and processing flows,
                     infrastructure, and information technology services, as well as involved
                     organizations, locations, processes, policies, and people.
Customer Account     A major component of the IRS modernization program. The system
Data Engine          consists of current and planned databases and related applications that
                     work with the IRS Master File system (see Master File below).
Customer Account     Defines the Program’s approach for delivering the Customer Account Data
Data Engine 2        Engine 2 (CADE 2) solution and describes the path from the current state
Program Roadmap      to the target state through the identification and definition of Program
                     Transition States.




                                                                                         Page 26
                            The Customer Account Data Engine 2
                      Database Implementation Project Made Progress
                     in Design Activities, but Improvements Are Needed



Term               Definition
Customer           One of the features in the Solution Layer of the ELC Framework. A
Technical Review   Customer Technical Review is a review performed by IRS stakeholders on
                   an artifact or a small group of closely related artifacts produced by a
                   project with the purpose of facilitating approval of the artifact by ensuring
                   early stakeholder feedback as well as early identification and resolution of
                   issues and actions.
Daily Processing   Planned to modify affected tax processing systems and applications to
Project (CADE 2)   accomplish daily processing of individual taxpayer accounts.
Database           An application that manages data and allows fast storage and retrieval of
                   that data.
Design             Documents the application design, data design, technical infrastructure,
Specification      and traceability to the requirements. It also describes the design based on a
Report             defined scope and the business system requirements that are described in
                   the CADE 2 Project Charter, the CADE 2 Database Implementation
                   Business System Report, and the CADE 2 Program Roadmap.
Enterprise         A unifying overall design or structure for an enterprise that includes
Architecture       business and organizational aspects of the enterprise as well as technology
                   aspects. Enterprise Architecture divides the enterprise into its component
                   parts and relationships and provides the principles, constraints, and
                   standards to help align business area development efforts in a common
                   direction. An Enterprise Architecture ensures that subordinate
                   architectures and business system components developed within particular
                   business areas and multiple projects fit together into a consistent,
                   integrated whole.
Enterprise File    Provides point-to-point file transfers and store-and-forward transfers within
Transfer Utility   the IRS firewalls between systems in the Modernized environment,
                   between Current Production Environment systems, and between
                   Modernized and Current Production Environment systems.
Enterprise Life    A structured business systems development method that requires the
Cycle              preparation of specific work products during different phases of the
                   development process.
Error Handling     System that collaborates the handling of production errors.
System




                                                                                        Page 27
                             The Customer Account Data Engine 2
                       Database Implementation Project Made Progress
                      in Design Activities, but Improvements Are Needed



Term                Definition
Extract,            The processes that enable the data from multiple sources to be moved,
Transform, and      cleansed, and loaded into another database, a data mart, or a data
Load (ETL)          warehouse for analysis or on another operational system to support a
                    business process.
Individual Master   The IRS database that maintains transactions or records of individual tax
File                accounts.
Informatica         A comprehensive, open, unified, and economical data integration platform
                    that supports all five steps in the data integration life cycle. It sustains all
                    roles involved in data integration—data stewards, data analysts, architects,
                    administrators, and developers.
Infrastructure      The fundamental structure of a system or organization. The basic,
                    fundamental architecture of any system (electronic, mechanical, social,
                    political) determines how it functions and how flexible it is to meet future
                    requirements.
Initialization      Initial population of the CADE 2 database primarily from IMF data.
Integrated Data     The IRS computer system capable of retrieving or updating stored
Retrieval System    information; it works in conjunction with a taxpayer’s account records.
Integrated          Intended to be a data store to meet IRS needs for data analytics and long-
Production Model    term reporting and as a source for other types of analytic data that
                    supplement the transactional core data store.
Interface Control   An ELC artifact documenting an agreement between two (or more) parties
Document            used to define and gain consensus on an interface between systems,
                    subsystems, or system components developed by different groups.
Logical Design      The second of two-stage components of the Preliminary Design Phase in
                    the System Life Cycle Layer of the ELC Framework. Completes the
                    logical design from all perspectives, including logical design of
                    applications.
Master File         The IRS database that stores various types of taxpayer account
                    information. This database includes individual, business, and employee
                    plans and exempt organizations data.
Milestone           Scheduled time period for providing a “go/no-go” decision point in a
                    program or project and can be associated with funding approval to proceed.
Milestone Exit      Checkpoint formalizing the conclusion of a Milestone.


                                                                                            Page 28
                              The Customer Account Data Engine 2
                        Database Implementation Project Made Progress
                       in Design Activities, but Improvements Are Needed



Term                 Definition
National Institute   A nonregulatory Federal agency, within the Department of Commerce,
of Standards and     responsible for developing standards and guidelines, including minimum
Technology           requirements, for providing adequate information security for all Federal
                     Government agency operations and assets.
Phase                Broad segment of work encompassing activities of similar scope, nature,
                     and detail and providing a natural breakpoint in the life cycle.
Preliminary Design One of the phases in the System Life Cycle Layer of the ELC Framework.
Phase
Privacy Impact       An analysis of how information is handled to: 1) ensure handling
Assessment           conforms to applicable legal, regulatory, and policy requirements regarding
                     privacy; 2) determine the risks and effects of collecting, maintaining, and
                     disseminating information in identifiable form in an electronic information
                     system; and 3) examine and evaluate protections and alternative processes
                     for handling information to mitigate potential privacy risks.
Program              A set of projects and other activities undertaken to improve the IRS.
Project              A group of tasks to accomplish a specific objective with a beginning and
                     ending date that is planned, monitored, and measured; follows a life cycle
                     process; and results in deliverables or end products.
Prototype or         Prototyping is the process of quickly putting together a working model (a
Prototyping          prototype) in order to test various aspects of a design, illustrate ideas or
                     features, and gather early user feedback. Prototyping is often treated as an
                     integral part of the system design process.
Relational           A collection of data items organized as a set of formally described tables
Database             from which data can be accessed or reassembled in many different ways
                     without having to reorganize the database tables.
Requirement          A formalization of a need and statement of a capability or condition that a
                     system must have or meet to satisfy a contract, standard, or specification.
Risk                 Identification of a condition that can pose a barrier to the progress or
                     delivery of the project if left unmitigated.




                                                                                            Page 29
                              The Customer Account Data Engine 2
                        Database Implementation Project Made Progress
                       in Design Activities, but Improvements Are Needed



Term                 Definition
Risk-Based           A decision made by individuals responsible for ensuring security by
Decision             utilizing a wide variety of information, analyses, assessments, and
                     processes. The type of information taken into account when making a
                     risk-based decision may change based on life cycle phase, and a decision is
                     made taking the entire posture of the system into account. Some examples
                     of information taken into account are formal and informal risk assessments,
                     risk analysis assessments, recommended risk mitigation strategies, and
                     business impact.
SharePoint           A web-based repository that the IRS uses to store and control
                     organizational products and documentation.
Solution Concept     Describes a complete solution for realizing the future state vision that
                     includes all domains of change.
Stakeholders         An individual or organization that is materially affected by the outcome of
                     the system. Key stakeholders represent both business and technical
                     functions that fully participate in the architecture development effort to
                     ensure that directional guidance is both accurate and sufficient. These
                     stakeholders are empowered to make project and architectural decisions.
                     Examples of project stakeholders include the customer, the user group, the
                     project manager, the development team, and the testers.
System               A set of interconnected hardware and programs that the IRS uses to
                     perform certain business functions.
System Concept       Provides a conceptual view of the chosen data, application, and
                     infrastructure (technology) architectures for realizing the
                     future-state vision.
Transformation       Used by the ETL Program to transform individual taxpayer accounts from
Rules                IMF flat-file formats and current CADE relational database formats (for
                     the one-time initialization) to the formats and structures defined for the
                     CADE 2 database.
Transition State 1   Specific to CADE 2. An intermediary state for the CADE 2 system,
                     delivering a set of functionality as defined by the Roadmap and other
                     supporting documents.




                                                                                           Page 30
              The Customer Account Data Engine 2
        Database Implementation Project Made Progress
       in Design Activities, but Improvements Are Needed



                                                  Appendix IX

Management’s Response to the Draft Report




                                                           Page 31
       The Customer Account Data Engine 2
 Database Implementation Project Made Progress
in Design Activities, but Improvements Are Needed




                                                    Page 32
       The Customer Account Data Engine 2
 Database Implementation Project Made Progress
in Design Activities, but Improvements Are Needed




                                                    Page 33
